                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                   Inspection of
                                            Embassy Yaoundé, Cameroon

                                              Report Number ISP-I-11-45A, June 2011




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552.Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as
issued by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as
issued by the Office of Inspector General for the U.S. Department of State (Department) and the
Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General




                                          ii
                              SENSITIVE BUT UNCLASSIFIED
                                             SENSITIVE BUT UNCLASSIFIED


                                                    Table of Contents

Key Judgments ............................................................................................................................... 1
Context ........................................................................................................................................... 2
Executive Direction ........................................................................................................................ 3
   Embassy Yaoundé in Context .................................................................................................... 3
   Mission Strategic Resource Plan Process ................................................................................... 3
   Country Team(s) ........................................................................................................................ 4
   State of the Mission .................................................................................................................... 5
   Embassy Branch Office Douala ................................................................................................. 5
Policy and Program Implementation .............................................................................................. 7
   Political/Economic Section ........................................................................................................ 7
   Foreign Assistance ..................................................................................................................... 8
   Law Enforcement Issues ............................................................................................................ 9
   Public Diplomacy ....................................................................................................................... 9
   Consular Affairs ....................................................................................................................... 11
   Visas Viper Program ................................................................................................................ 14
Resource Management ................................................................................................................. 15
   Management Overview ............................................................................................................ 16
   Financial Management ............................................................................................................. 16
   International Cooperative Administrative Support Services .................................................... 17
   Human Resources..................................................................................................................... 17
   General Services....................................................................................................................... 19
   Information Management ......................................................................................................... 21
Quality of Life .............................................................................................................................. 24
   Health Unit ............................................................................................................................... 24
   Equal Employment Opportunity .............................................................................................. 24
   Community Liaison Office....................................................................................................... 24
   International Schools ................................................................................................................ 25
   Recreation Association............................................................................................................. 26
Management Controls .................................................................................................................. 27
   Embassy Branch Office Douala Operations ............................................................................. 27
List of Recommendations............................................................................................................. 30
Informal Recommendations ......................................................................................................... 32
Principal Officials ........................................................................................................................ 33
Abbreviations ............................................................................................................................... 34




                                                         iii
                                             SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     Executive leadership at Embassy Yaoundé is perceptive and pragmatic. The recently
          arrived Ambassador and his deputy chief of mission (DCM) are personally engaged in
          and concerned for the welfare of their American and Cameroonian staff, yet they also
          recognize where there are weaknesses that they must address.
(b) (5)




    •     Embassy branch office Douala’s limited and modest responsibilities do not justify its
          annual operating costs in excess of $1.5 million. Long staffing gaps in the sole American
          position have contributed to a weak internal controls environment for shipping
          operations. Other functions for consular, political, and economic reporting and
          commercial advocacy can be performed elsewhere. A number of functions should be
          transferred to Embassy Yaoundé, and the Department of State (Department) should
          consider closing the facility.


The inspection took place in Washington, DC, between January 10 and 28, 2011; in Yaoundé,
Cameroon, between February 18 and March 5, 2011; and in Douala, Cameroon, between
February 24 and 25, 2011. (b) (6)




                                            1
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        Cameroon, officially the Republic of Cameroon, is located on the Atlantic coast at the
intersection of West and Central Africa. Cameroon is approximately the size of California and
has a population of 19.5 million that includes more than 200 ethnic groups. French and English
are the official languages. Cameroon has enjoyed greater stability over the years than many of its
neighbors, which has permitted the development of agriculture, roads, and railways, as well as a
petroleum industry. However, democratic reform has been slow and institutions remain
ineffective. Since 1982, political power has remained firmly in the hands of President Paul Biya.
In 2008, the President engineered the removal of constitutional term limits that would have
forced him to step down when his current term ends in 2011. Cameroon’s economic
development has been impeded by mismanagement and prolific corruption. The 2010 World
Bank’s Doing Business index ranked Cameroon near the bottom at 168 out of 183 countries,
down from number 164 in 2009. Despite the significant risk, the United States is the leading
investor in Cameroon, with several billion dollars in the petroleum and metals industries alone.
American companies purchase more than half of Cameroon’s cocoa crop.

        Ties between the United States and Cameroon are strong. Cameroon has occupied a
position of regional leadership in Africa and is an active participant in the United Nations, where
it has been consistently supportive of the United States on issues such as Iraq, arms control, and
international peacekeeping.

       U.S. Government priorities in Cameroon include strengthening democracy and good
governance, building peace and security, fostering economic prosperity, investing in people, and
preserving the environment.

        Embassy Yaoundé and the embassy branch office in the port city of Douala are staffed by
51 direct-hire Americans and 211 LE staff members. The Department of Defense, Peace Corps,
and the Centers for Disease Control and Prevention (CDC) are represented in Cameroon with
direct-hire staff, and the U.S. Agency for International Development (USAID) has one LE staff
position. Peace Corps currently has 158 volunteers in Cameroon. U.S. Government assistance to
Cameroon in FY 2010 approached $25 million.




                                          2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
Embassy Yaoundé in Context

        The Ambassador arrived in October 2010 to assume charge of Embassy Yaoundé, a high-
differential post in West Central Africa. Last inspected in 2004, Embassy Yaoundé’s previous
inspection report took note of the dearth of Washington attention and urged policy makers to
think strategically of Cameroon as a regional player in concert with Equatorial Guinea and the
Central African Republic. Six years later, this Office of Inspector General (OIG) team found the
situation unchanged.

         The Ambassador is realistic about his country’s place in Washington policy makers’
hierarchy of African nations and their issues. He also is realistic about the Republic of Cameroon
and knows its weaknesses—pervasive corruption and weak democratic institutions—and its
strengths—reasonably stable and a consistent friend to the United States. With respect to the
latter, the Ambassador reports that President Paul Biya and Prime Minister Philemon Yang have
both told him that “Cameroon is the United States’ best friend in the region.”

        For his part, the Ambassador concludes that Cameroon may be one of our best friends in
Central Africa. He notes that the Government of the Republic of Cameroon appreciates that U.S.
companies have invested more in Cameroon than have companies from any other country,
including the former colonial power, Germany, and former trustees France and the United
Kingdom. With U.S. commercial interests preeminent in Cameroon, the Ambassador, like his
ambassadorial counterparts in neighboring countries, rues the unilateral decision to close all
Foreign Commercial Service offices in the region. And, like his predecessors, he urges increased
attention to Cameroon in the context of its role as a friendly regional partner to the United States.
The OIG team supports the Ambassador’s position on both these issues.

Mission Strategic Resource Plan Process

       Prior to the OIG team’s arrival, Embassy Yaoundé had already started preparations for its
FY 2013 Mission Strategic Resource Plan (MSRP). The new Ambassador held an initial MSRP
team-building off-site meeting at his official residence. He also began a series of discussions
with the expanded country team, focusing on additional ways to address specific goals, both
within and outside the mission. The Ambassador intends to expand MSRP discussions to include
monthly participation by LE staff as well.

         The previous (FY 2012) MSRP process took place prior to the arrival of the current
Ambassador but with the direct involvement of the current DCM, who has been at post since
August 2009. Mission Cameroon’s priorities, as enumerated in its FY 2012 MSRP, are
strengthening democracy and good governance, building peace and security, fostering economic
prosperity, investing in people, and preserving the environment. The MSRP fully reflects the
activities of other agencies active in country, and the mission reports a clear consensus on the
post’s goals and objectives. To prepare the FY 2012 MSRP, Embassy Yaoundé created working
groups organized around themes related to several of the MSRP goals. The DCM participated in
those meetings and in information sessions with the Department, working closely with post’s
MSRP coordinator.
                                                 3
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The FY 2012 MSRP is harmonized with the International Affairs Strategic Plan, the
Department’s Strategic Plan, and the Bureau of African Affairs’ Plan. It has been a reference
point for mission activities, with the political/economic and public affairs sections and Defense
attaché office particularly well versed in mission strategic goals. Public diplomacy is carefully
geared toward the MSRP, and the goals are reflected in the work requirements of some (but not
all) officers. Moreover, post management is making it a requirement to link representational
vouchers to MSRP goals. Reporting and travel plans also reflect MSRP priorities. The DCM told
the OIG team that she expects MSRP priorities to remain largely the same for FY 2013.

        In response to OIG questionnaires, Embassy Yaoundé provided thoughtful contributions
on how to improve the MSRP process. The mission recommends that the MSRP cycle be
regularized to avoid conflict with the employee evaluation report season. Also useful would be to
combine the MSRP, the USAID Country Operational Plan (COP), the President’s Emergency
Program for AIDS Relief (PEPFAR) COP, and the review of accomplishments under the COP.
The OIG team endorses these useful MSRP suggestions.

Country Team(s)

        Because of fortuitous timing, the OIG team was present in Cameroon to observe all three
types of Embassy Yaoundé country team meetings: weekly mini country team with the
Ambassador/DCM, agency heads, and section chiefs; weekly country team with the
Ambassador/DCM, agency heads, section chiefs, and their deputies, including the community
liaison office (CLO) coordinator; and the monthly expanded country team, an initiative of the
new Ambassador, which is held in the unclassified multipurpose room and includes the full
country team as well as participation from their senior LE staff. At a mission where relations
between U.S. direct-hire and LE staff have been an issue in the past, the Ambassador’s expanded
country team initiative is a welcome demonstration of his commitment to all-embassy
information sharing and team building. At the expanded country team, the OIG inspectors
observed the LE staff participants contributing along with their American counterparts. The
atmosphere in the expanded country team, as in the other two country teams, was collegial.

         Although so many country team meetings could appear excessive if chaired by a less
skillful leader, the OIG team noted that, in the hands of the current Ambassador, they are a useful
tool. Participants shared information and were briefed on upcoming plans rapidly and efficiently
and appeared careful to share only those issues that would be useful for the group. At the mini
country team, in particular, the Ambassador delegated responsibilities and managed time very
well. For example, he left the question of whether to use an armored vehicle for an upcoming trip
in the hands of his experts, cutting off what otherwise could have been a protracted discussion.
When asked what to do about the possible U.S. Government shutdown if another continuing
resolution were not passed, he postponed discussion until later in the week, when the results of
the U.S. House and Senate votes would be known. The OIG team was particularly impressed by
the Ambassador’s well-organized and information-rich briefing to his mini country team on his
recent meeting with a Cameroonian minister, as well as his willingness to take on tasks himself.
Noticing his political/economic section chief taking rapid notes during his briefing, the
Ambassador stopped him, advising that “it would make more sense if I write this up.”


                                          4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

State of the Mission

         As with so many management issues, solving one problem has created another at
Embassy Yaoundé. Long designated a historically difficult-to-fill, service-needs differential post,
Yaoundé is no longer in this category, largely because so many of its assignments are “directed”
to first- and second-tour officers and specialists. As a result, the Ambassador and DCM are
challenged with managing a small mission with a large workload and a talented but
inexperienced staff of first- and second-tour personnel. The front office embraces this challenge,
and the DCM has been meticulous in fulfilling her responsibility to mentor first- and second-tour
officers. In a series of meetings with the OIG team, these new officers and specialists advised
that the DCM meets with them individually for counseling and employee evaluation report
sessions and also collectively to discuss topics unique to those new to the Foreign Service. If
anything, the officers indicated that they might be meeting too often.
       (b) (5)




Embassy Branch Office Douala

        Embassy branch office (EBO) Douala is a problem. This hybrid office handles shipping
for Embassy Yaoundé and other posts in the region, some consular issues, limited
political/economic work, and some commercial outreach. The embassy believes strongly that a
continued EBO presence is essential. Having followed proper National Security Decision
Directive-38 procedures, the Defense attaché will soon have a two-person Naval Criminal
Investigative Service Force Protection Detachment in Douala, and an Office of Security
Cooperation presence is also planned. Moreover, the energetic Ambassador wants to expand
operations there because Douala is the financial capital, there are many U.S. businesses (and
American citizens) there, and it is the shipping hub for this region of Africa.

       Although the embassy believes strongly that a continued EBO presence is essential, the
annual operating cost of maintaining the office space exceeds $500,000, not counting salaries.
The soon-to-be-filled (via volunteer cable with an FO-03 political officer) EBO director position
receives supervision from the DCM, who keeps in touch via weekly telephone calls. The DCM
acknowledges that oversight controls must be strengthened, particularly with respect to shipping
and consular operations, but has been hard-pressed to develop a more workable plan. Given its
hybrid nature, EBO Duala would also benefit from supervision by the management section chief.
Despite the embassy’s preference, the OIG team is not fully convinced that a permanent
Department presence can be justified, given the cost and difficulty of maintaining adequate
management controls at this hybrid office.
                                               5
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 1: The Bureau of African Affairs, in coordination with Embassy Yaoundé,
the Bureau of Consular Affairs, and the Bureau of Diplomatic Security, should prepare a written
plan for the Under Secretary for Management that outlines the cost savings of closing embassy
branch office Douala at the earliest opportunity. (Action: AF, in coordination with Embassy
Yaoundé, CA, and DS)

       Further discussion of issues and recommendations related to current EBO Douala
operations appear in the Consular Affairs, Management Resources, and Management Controls
sections of this report.




                                         6
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        The embassy’s small combined political/economic section is also responsible for
commercial activities. The section consists of three officers, one direct-hire office management
specialist, one eligible family member (EFM) employee, and eight LE staff assistants. The EFM
employee and one LE staff assistant manage the Special Self-Help Program, and one LE staff
assistant is responsible for U.S. Department of Agriculture (USDA) assistance programs. In
addition, section officers supervise a USAID-funded LE program management specialist and a
commercial LE staff assistant in Douala. The section chief is highly regarded by his staff.

        The section provides good reporting that covers a broad spectrum of relevant topics and
actively engages in advocacy for U.S. policies, particularly those regarding good governance and
U.S. commercial interests. The section chief has organized subgroups within the section that
meet periodically to review progress toward MSRP goals and is revising portfolios to better meet
those goals. The section supplements its regular cable reporting with a monthly newsletter that
covers issues and events and through the classified Intellipedia blog site. Officers complained
about the lack of consistent support from the Bureau of African Affairs because of frequent
turnover in the Cameroon desk officer position.

        The economic/commercial officer supervises five LE staff members—four in Yaoundé
and one in Douala, the nation’s commercial center. Together, their reporting, much of it
mandated by Washington, supports the mission’s third MSRP goal of enhancing economic
opportunity. As is often the case in small embassies such as Yaoundé, the economic/commercial
officer has little prior commercial experience. The Foreign Commercial Service’s regional office
in Dakar, Senegal, has provided valuable assistance to Cameroon’s commercial operations. Its
imminent closing will remove an important resource and support mechanism for the section and
will adversely affect its performance potential.

        The section has significant responsibilities associated with oversight management of the
assistance programs. This aspect is discussed in greater detail with recommendations in the
Foreign Assistance section of this report. The Ambassador has expressed a desire for a fourth
political/economic officer position, which the OIG team also addresses in the Foreign Assistance
section.

        Interagency coordination within the mission is generally excellent. However, several
officers noted a lack of responsiveness from regional representatives of some partner agencies
located in other capitals, as well as from other agencies’ representatives in Washington. From the
Embassy Yaoundé perspective, coordination has been hampered by frequent turnover in desk
officers. The OIG team agrees that a stable Cameroon desk officer position could go a long way
toward facilitating coordination and advocacy with other agencies.




                                         7
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Foreign Assistance

        With a staff of three LE assistants and one EFM employee, all under the supervision of
the political/economic section chief, Embassy Yaoundé oversees a very modest, but growing
foreign assistance portfolio that in FY 2010 totaled more than $26 million. Currently, no one
person has a comprehensive understanding of the many components of U.S. Government
assistance to Cameroon. The new Ambassador has requested a thorough review and accounting
of this matter.

        Cameroon is a USAID nonpresence post. USAID’s programs, valued at roughly $8
million for FY 2010, are managed by the USAID-paid LE staff program management specialist
in the political/economic section. In addition to a sizable PEPFAR component, USAID programs
address issues related to health, the environment, and economic growth through trade. CDC
administers $452,000 in PEPFAR funds, in addition to other health-related programs. The
Department of Defense conducts several assistance programs, including Expanded-International
Military Education and Training, humanitarian assistance, border and maritime security, HIV
prevention, and counterterrorism training. Its programs are valued at more than $1million.

       The Department provides $210,000 in Office to Monitor and Combat Trafficking in
Persons funds; more than $2 million in Bureau of Democracy, Human Rights, and Labor funds;
and approximately $7.5 million in Bureau of Population, Refugees, and Migration funds to
Cameroon through international organizations, nongovernmental organizations, and other
implementing partners.

        The political/economic section is responsible for managing the Department-funded
Special Self-Help Program and the Democracy and Human Rights fund, which in FY 2010
totaled $90,000 (11 projects) and $60,000 (4 projects), respectively. The two programs are
managed by one LE staff assistant and the EFM employee. Another political/economic section
LE staffer monitors the U.S. Department of Agriculture’s $2.8 million Food for Education
program and is currently overseeing an effort to recoup missing and misspent funds from
USDA’s 2003–2006 Food for Progress programs. The section’s foreign assistance
responsibilities will expand when the FY 2011 $14 million PEPFAR grant (increased from $4
million in FY 2010) comes online.

        The Ambassador recognizes the burden that growing U.S. Government assistance is
placing on the political/economic section and informed the OIG team he has requested a USAID-
funded direct-hire development attaché position, which would also have regional responsibilities
for Gabon, the Central African Republic, and the Republic of the Congo. The OIG team supports
this request. The Ambassador has also expressed a desire for a fourth political/economic officer
position. The OIG team believes that the proposed addition of a development attaché will
provide adequate relief to the political/economic section, allowing it to fully accomplish its
reporting and advocacy responsibilities without additional direct-hire staff.

        Although the political/economic section chief supervises the three LE staff members and
the one EFM involved full time in foreign assistance, neither he nor any other section officer has
grants authority. Given the complexity and expanding nature of U.S. Government assistance to
Cameroon, the OIG team believes that at least one officer in the section should have appropriate
                                         8
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

training and hold grants authority to provide informed guidance and oversight to the four-person
staff involved with assistance programs.

Recommendation 2: Embassy Yaoundé should require that at least one officer in the
political/economic section receive training in grants management and hold grants authority.
(Action: Embassy Yaoundé)

        Cameroon is on the Trafficking in Persons Tier 2 Watch List, with a waiver that allows it
to continue to receive development assistance. The embassy expects to retain that status in the
coming year.

Law Enforcement Issues

        The regional security officer (RSO) is the only law enforcement representative at post.
He maintains regular contact with the Department of Justice’s regional legal attaché and regional
Drug Enforcement Administration representative in Lagos, Nigeria, and with the regional
Department of Homeland Security representative in Accra, Ghana. He also expects to work
closely with the new Naval Criminal Investigative Service office, which is to open in the port
city of Douala later this year.

       The RSO maintains constructive relationships with local law enforcement entities and
works with the International Law Enforcement Academy in Botswana to offer several courses
each year to Cameroonian law enforcement officials.

        The new RSO has reinvigorated the law enforcement working group. Chaired by the
DCM, this group consists of representatives from the Defense attaché office, political/economic
section, consular section, and regional security office and meets on a monthly basis to share
information on programs and developments of concern, including drug and human trafficking,
Internet scams, and organized crime.

Public Diplomacy

         The public affairs section (PAS) manages an active public diplomacy program that is
closely linked to the embassy’s four MSRP goals. The section is led by an experienced public
affairs officer (PAO) and includes a cultural affairs officer (CAO), 1 part-time EFM educational
advisor, and 13 LE staff members. A third direct-hire position, the information officer, was
eliminated in 2010, following the departure of the incumbent. The Ambassador has requested the
return of this position based on media liaison needs, and the Bureau of African Affairs has
agreed in principle if and when additional positions become available. The OIG team believes
that two officers are adequate to meet the current program needs of Embassy Yaoundé. With the
shift from three officers to two, the PAO has already assumed much of the media liaison
portfolio of the information officer. Recommended adjustments to the CAO work requirements
are discussed later in this section of the report.

         The PAO has ready access to the Ambassador and DCM and participates in all embassy
country team and cross-cutting program coordination meetings. Public affairs support for the
activities of other mission elements is excellent, in large part because the PAO has assigned
                                         9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

individual PAS staff members to work with specific mission elements, such as the CDC, Peace
Corps, Self-Help Program, and Defense attaché. As noted earlier, the Ambassador maintains a
very active public schedule that involves close coordination with the PAO.

        The embassy participates in the full range of available educational exchange programs,
including Fulbright graduate and senior lecturer programs, the Hubert Humphrey Fellowship, the
Community College Initiative, and the Youth Exchange Study program. The embassy
international visitor committee chaired by the DCM selected 19 participants during FY 2010.
The CAO, on her first public diplomacy assignment, manages an active educational and cultural
outreach program that has recently included performing artists and digital video conference
sessions in the embassy multipurpose room for Cameroon contact groups and American
counterparts. The CAO and EFM educational advisor work together on outreach to the seven
major universities in Cameroon. Given the difficulty of travel to most regions in Cameroon, the
OIG team discussed with PAS how a growing number of embassies arrange for members of the
American community to speak at regional educational and other institutions when they travel.
This informal embassy speaker program is usually coordinated by PAS and has proved to be a
useful and cost-effective method for reinforcing contact with regional audiences.

Information Resource Center

        PAS maintains an Information Resource Center (IRC) in the new embassy compound
that is managed by an experienced LE director and three LE assistants. The facility includes a
collection of 3,000 books, 38 periodical subscriptions, seating for approximately 20 visitors, and
5 Internet terminals for public use. One LE assistant maintains the embassy Internet Web site
that includes frequent updates from all mission elements, an active embassy Facebook page with
more than 1,000 participants, and a Virtual Presence Post Web site that serves northern
Cameroon and receives an average of 73 visits a day. The regional information resource officer
at Embassy Accra provides advisory and training support to the IRC staff in Yaoundé.

        The IRC currently has 707 registered members, who are allowed to visit the facility
without an appointment. However, visitation to the IRC, including program events, is not high,
often fewer than 200 per month. PAS developed an IRC strategic plan for FYs 2010–2011 that
includes a number of specific marketing and outreach initiatives, including the distribution of a
monthly newsletter. Few of these initiatives have been implemented, and visitation to the IRC
continues to languish. Supervision of IRC operations had been the responsibility of the
information officer, but following the elimination of that position, supervision has not been
formally assumed by either the PAO or the CAO. The OIG believes that making one of the two
public diplomacy officers more directly involved in the management of the IRC would result in
better integration of IRC and PAS operations.

Recommendation 3: Embassy Yaoundé should rewrite the work requirements of one of the
two public diplomacy officers to include direct supervision of Information Resource Center
operations. (Action: Embassy Yaoundé)




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

American Corners

         Until recently, Embassy Yaoundé cosponsored three American Corners with host
institutions in Buea (south-western region), Bertoua (eastern region), and Garoua (northern
region). In 2010, the embassy closed the American Corner in Bertoua after an extended period of
nonperformance. The poor performance of the remaining two Corners is also an issue that has
been noted in reports following the last two annual visits by the regional information resource
officer. Although the embassy IRC is responsible for coordinating information support to the
American Corners, communication with these facilities has been poor and direct contact
sporadic. The original memoranda of understanding that were required to establish both
American Corners and to provide ongoing financial support expired several years ago and have
not been renewed. The PAO is concerned about the poor performance of these two remaining
partnerships and has taken some initial steps. Placing IRC operations under the direct supervision
of the CAO should also help, but additional action is needed.

Recommendation 4: Embassy Yaoundé should renew the two memoranda of understanding
with American Corner host institutions in Buea and Garoua. (Action: Embassy Yaoundé)

Recommendation 5: Embassy Yaoundé should develop an annual plan that includes
measurable performance goals for supporting the two American Corner facilities in Buea and
Garoua. (Action: Embassy Yaoundé)

Grants

         Both the PAO and CAO have grants authority. During FY 2010, PAS administered 67
small grants from a Department allocation of approximately $80,000. A sampling of the PAS
grant files indicates that the grants support MSRP goals and are fully documented. As noted
earlier in this report, the Special Self-Help Program small grants are issued by the USAID
mission in Accra and administered by an LE coordinator attached to the political/economic
section.

Consular Affairs

        Embassy Yaoundé’s consular section is well managed and productive. The staff consists
of an FO-02 chief, 2 entry-level officers, 1 EFM position, and 10 LE staff members. The section
chief places a high priority on both customer service and team building. The section provides the
full range of consular services for Cameroon as well as visa services for the Central African
Republic. Frequent staffing gaps, caused in part by delays in French language training, have a
negative impact on the section’s ability to meet all of its responsibilities. EBO Douala augments
the section’s American citizens services (ACS) operations when the director position is filled.
One LE staff assistant in Douala provides information to U.S. citizens in the region and is
included by phone in twice monthly consular staff meetings in Yaoundé.

        The consular section processed just over 10,000 nonimmigrant visa (NIV) applications in
FY 2010 and more than 3,400 immigrant visa (IV) cases. Routine and emergency ACS cases
make up a small portion of the section’s overall workload, but protection of U.S. citizens is the
top priority. Coordination between the consular section and other mission elements is generally
good. A Frankfurt-based regional consular officer supports the section with an annual visit.
                                              11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

American Citizens Services

        In FY 2010, Embassy Yaoundé processed fewer than 400 passport applications. There are
an estimated 5,000 U.S. citizens living in Cameroon, but only approximately 500 are registered
with the embassy. Many of the known residents are children who were born in the U.S. but are
now living with relatives in Cameroon. There are very few tourists and short-term visitors. The
consular section is proactive in communicating with U.S. citizens though the use of social media
and texting.

         There is no separate waiting area for the ACS unit. A privacy booth is used for all ACS
activities. A sign above the door designates that the room is for citizens services, but a customer
has no way of knowing whether the room is already occupied. Once in the room, the customer
may have to ring a bell for service if the ACS LE staff member is not already sitting on the other
side of the window. U.S. citizens could be kept waiting in the same crowded room with visa
applicants or sitting in the privacy booth unattended.

       Informal Recommendation 1: Embassy Yaoundé should program the Qmatic customer
       management flow system to allow separate numbers to be provided for individuals
       seeking American citizens services and, if possible, to indicate the number currently
       being served.

Nonimmigrant Visas

       Embassy Yaoundé adjudicated 10,288 NIV applications in FY 2010. All machine
readable visa application fees are collected on site by the consular cashier. Appointments are
scheduled using an online appointment system. The NIV unit has procedures that allow
applicants to request expedited appointments, and students are given priority in scheduling.

         The Visa Office in the Bureau of Consular Affairs has contracted a global service to
provide off-site fee collection and schedule visa appointments. Service in the unit will be greatly
enhanced when the off-site fee collection is introduced in early 2012. In the meantime, the unit
must contend with a cumbersome process that requires four or five separate trips to a window in
the course of one appointment. Because of a relatively low level of computer awareness
combined with low education levels, many applicants present forms that are completed
incorrectly. Lack of a reliable Internet infrastructure in most of the country also means that
photos cannot be uploaded with the application and must be attached to the application at the
intake stage. Furthermore, at the time of the inspection, applicants were being sent to the cashier
after intake. The OIG team discussed the requirement that fees be paid before any service is
provided, and the unit reversed the order of these two steps during the inspection.

Immigrant and Diversity Visas

        Embassy Yaoundé adjudicated more than 3,400 IV cases in FY 2010, of which 75
percent were diversity visas. All types of IV cases in Cameroon are subject to fraud, including
relationship fraud. There is no viable civil registry in Cameroon, and many legitimate
relationships cannot be proved because documentation simply is not available. In many cases,
the biological relationship required for some categories of IVs can be verified only through the
use of DNA testing.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         Guidelines for the collection of DNA in visa cases are outlined in 9 FAM 42.44 Notes.
Among the specific requirements are that an American officer be present to witness the
collection, the DNA testing kit must be provided by a lab accredited by the American
Association of Blood Banks, and the collection must be done in the consular section by an
employee of the panel physician. Scheduling the tests and tracking the testing kits from start to
finish, as well as entering required case notes for each sample taken, constitutes a significant
portion of the IV workload in Yaoundé. Between 10 and 14 applicants are scheduled for DNA
testing every other week. Applicants are notified by the consular section that they must pay the
associated costs of the testing directly to the panel physician at the appointment. The current fee
is 50,000 CFA francs, slightly more than $100, payable in exact change. The panel physicians in
Yaoundé collect their own samples rather than use a technician. Collection fees are in addition to
any fees charged by the lab and compensate the doctors for their time. Notwithstanding the fact
that the doctors are losing regular income while at the embassy, it appears to the OIG team that
the fees they are charging for the simple act of swabbing a cheek are excessive for the local
economy, where an average annual doctor’s salary is approximately $30,000.

        The Bureau of Consular Affairs has not defined how fees should be set for this service;
however, for other medical services provided by panel physicians, the standard according to 9
FAM 41.108 N2 should be governed by the prevailing medical fees within the country for
similar services.

Recommendation 6: Embassy Yaoundé should review prevailing medical fees in Cameroon
and work with panel physicians to set reasonable fees for the collection of DNA samples.
(Action: Embassy Yaoundé)

Embassy Branch Office Douala

       The director of EBO Douala is routinely designated as a consular officer, with a title and
commission, for the purpose of providing basic ACS functions such as accepting passport
applications and notarizing documents. No visa services are performed in Douala. The work
requirements for the position stipulate 10 percent of the officer’s time should be devoted to
consular duties. The LE staff receptionist position includes 50 percent consular duties. The Class
B cashier in Douala is dually designated as a consular cashier and has been equipped with a
stand-alone version of the automated cash register system. The EBO director supervises both the
consular assistant and the cashier. The director accepts only routine, readily approvable passport
applications and refers all others to Embassy Yaoundé. When the director is not present, the only
passport work conducted in Douala is providing information on the embassy's ACS hours.
Douala refers all emergency passport, consular reports of birth abroad, and extra-page requests to
Yaoundé for service.

        In 1992, EBO Douala was authorized to perform the full range of notarial services. In FY
2010, the office reported that 15 notarial services had been provided. The LE staff member with
responsibilities for preparing notarials for an officer’s signature has never had formal training in
consular work but is taking an online course as time permits and receives guidance from the ACS
unit in Yaoundé. Although authorized to perform notarial services, EBO Douala has never
received venue stamps that properly reflect the actual location of the service, a violation of 7

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

FAM 837.2. Because the EBO is not officially a consulate or a consular agency, its notary seals
should be worded "Consular Service of the United States.”

Recommendation 7: Embassy Yaoundé should cease providing notarial services at embassy
branch office Douala until the Bureau of Consular Affairs, General Services Division supplies
venue stamps with the proper address. (Action: Embassy Yaoundé)

        At the time of the inspection, the automated cash register system machine had not been
operational for several months. The cashier had been issuing nonstandard receipts to clients,
which were reviewed by the director prior to providing a service. However, as the sole officer at
a post authorized to offer consular fee services, the director is responsible for performing the
duties of an accountable consular officer and for conducting the consular fee collection process
in accordance with instructions in 7 FAH-1 H-733. The cashier is responsible for preparing
duplicate receipts for consular services, and the accountable consular officer is tasked with
preparing monthly reconciliation reports.

Recommendation 8: Embassy Yaoundé should designate the Douala embassy branch office
director as an accountable consular officer with the responsibility for carrying out all fee
collection procedures in accordance with Department of State guidance. (Action: Embassy
Yaoundé)

Recommendation 9: Embassy Yaoundé, in coordination with the Bureau of Consular Affairs,
should maintain the stand-alone automatic cash register system machine at embassy branch
office Douala and provide a supply of manual receipts Form DS-4042 to be used when the cash
register system is not working. (Action: Embassy Yaoundé, in coordination with CA)

Visas Viper Program

        The Visas Viper program requires that a terrorist lookout committee, composed of all
sections and agencies involved in security or law enforcement, coordinate the use of interagency
intelligence for the watch-listing of terrorists (9 FAM 40.37). The OIG team examined the Visas
Viper reports for the last year. The embassy held all required meetings, and the consular section
submitted all required reports on time. Representatives of all embassy sections included in this
activity attended all meetings. During the past year, none of the 12 reports listed any potential
terrorists. The consular section did not make any classified submissions.




                                         14
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency         U.S. Direct-   U.S. Local-    Foreign        Total   Total Funding
                           Hire Staff    Hire Staff     National       Staff    (in dollars)
                                                         Staff                    FY 2010
State – Diplomatic and
Consular Programs                   13             3            23        39      $2,569,720
State – ICASS                        8             6           139       153      $8,055,200
State – Public
Diplomacy                            2             1            13        16        $751,000
State – Diplomatic
Security                             7             1            13        21      $1,314,527
State – Marine Security              6                                     6        $180,725
State – Representation1                                                              $31,500
State – OBO                          1                                     1      $2,539,863
Defense Attaché Office               5                             2       7        $319,559
Office of Security
Cooperation – OSC2                   1                                     1
USAID                                                              1       1         $79,776
DOD Foreign Area                     2                                     2
Officer2
Navy – FPD2                          2                                     2
Peace Corps                          3                           4         7      $3,401,160
CDC                                  1                          16        17         603,000

Subtotal                            51            11           211       273     $19,846,030

Foreign Assistance
USAID - DA                                                                        $7,800,000
USDA                                                                              $2,800,000
FMF                                                                                    $527
IMET                                                                                $285,000
CDC                                                                                 $897,000
DRL                                                                               $2,290,100
PRM                                                                               $7,577,000
Other                                                                             $2,419,441

Subtotal                                                                         $24,069,441

Total                               51            11           211       273     $43,915,471
   1. Includes $6,900 in public diplomacy representational funding.
   2. Funding level unavailable.



                                        15
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Management Overview

        The management section in Embassy Yaoundé provides good support across the entire
range of management operations, despite staffing gaps and the assignments of first-tour or entry-
level officers to most management positions. At the time of the inspection, the supervisory
general services officer position had been vacant since July 2010, and both the assistant general
services and financial management officers departed during the inspection. Scores on OIG
questionnaires and International Cooperative Administrative Support Services (ICASS) customer
satisfaction survey were above bureau and worldwide averages.

       Although the management section functions smoothly overall, there is a perception in the
embassy community that leadership is not always receptive to customer feedback. LE staff
believed that management had not always effectively addressed poor management by American
supervisors. Reverberations continue to be felt, and trust in the judgment and leadership of the
management officer is mixed among LE staff members. Repairing frayed relationships with the
LE staff, and conveying a more open and transparent face to the embassy community, will go far
toward ensuring that the good work of the section receives the recognition it deserves.

      Management also faces the challenges of controlling operational costs of the new
embassy compound and of maintaining the sophisticated infrastructure of the facility.

Embassy Security Program

      A full discussion of Embassy Yaoundé’s security program is provided, along with
recommendations, in the classified annex to this report.

Financial Management

        Embassy Yaoundé’s financial management office provides quality service to its ICASS
customers, as evidenced by the 2010 ICASS customer satisfaction survey. The scores for all
financial operations averaged 4.18 on a 5-point scale. This level of service is also borne out in
the OIG’s workplace and quality-of-life questionnaires, where overall financial services scored
4.33 on the same scale.

        The financial management officer, a first-tour officer in a one-grade stretch position,
directly supervises seven LE staff members. The office was responsible for FY 2010 allotments
of approximately $15.5 million. The LE financial specialist is a member of the Financial
Services Center Executive Corps and recently provided support to Embassy Malabo. The
financial management officer had regional responsibility for Embassy Bangui, but that duty is
now handled by rovers from the Financial Support and Training Office in Paris.

        The Class B cashier is experienced, knowledgeable, and well trained. Cashier operations
are in accordance with established financial management procedures and requirements. Monthly
and quarterly subcashier reconciliations are performed as required. The cashier’s accountability
was decreased (b) (5)                       The inspectors identified one shortcoming in cashier
operations: unannounced verifications of the subcashier funds in the CDC office in Mutengene
were not being performed monthly as required by 4 FAH-3 H-397.2-3.
                                          16
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Yaoundé should perform monthly
       unannounced cash counts of the subcashier funds in the Centers for Disease Control and
       Prevention office in Mutengene.

        EBO Douala also has a Class B cashier who reports to the EBO director, a position that
has been vacant since August 2010 and will not be filled until November 2011. In the interim,
the financial management officer has traveled to Douala each month to perform the unannounced
cash counts. In addition, there is no alternate Class B cashier in Douala.

       Informal Recommendation 3: Embassy Yaoundé should implement a policy that
       requires embassy branch office Douala’s Class B cashier to report to Embassy Yaoundé’s
       financial management officer.

       Informal Recommendation 4: Embassy Yaoundé should designate an alternate Class B
       cashier for embassy branch office Douala.

International Cooperative Administrative Support Services

        The embassy’s ICASS council includes representatives from the Department of Defense,
Department of Health and Human Services, Department of State, and Peace Corps. The council
is chaired by the Department’s consular section chief. The council meets regularly, using the
ICASS Service Center’s meeting planning schedule as guidance.

      Following 6 FAH-5 H-222.4, the embassy recently established an ICASS budget
committee that is chaired by the financial management officer.

        Embassy Yaoundé uses ICASS-lite to prepare its ICASS budget, but Washington’s
ICASS Service Center has recommended that post convert to ICASS standard. Washington’s
ICASS Service Center has also invited Embassy Yaoundé to join the Department’s pilot ICASS
furniture pool program, and the embassy plans to accept.

Human Resources

       The human resources office is led by a recently arrived, first-tour human resources officer
(HRO) in a one-grade stretch position. He supervises a staff of five LE staff employees and one
American EFM. The EFM employee and one LE staff member manage the French language
program. The other four LE staff members provide the core human resources functions. In
addition to the HRO, two of the core staff members are certified to perform computer-aided job
evaluations.

       Embassy Yaoundé respondents to the 2010 ICASS customer satisfaction survey ranked
both American personnel and LE staff services below the bureau and worldwide averages. The
2010 American personnel services score of 3.24, on a 5-point scale, showed a significant decline
from the average of the previous 5 years of 4.28. The 2010 LE staff services fared much better at
3.81 compared to the 5-year average of 3.86. The low ranking of the human resources office
predates the current HRO. The OIG team believes that a major factor in the low ranking was the

                                         17
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

lack of American supervision. Since late 2008, two previous HROs served an average of 5
months each, interspersed with gaps totaling 12 months, until the arrival of the current HRO.
       (b) (5)




       Informal Recommendation 5: (b) (5)



       (b) (5)




       The last OIG report of 2004 noted that the LE staff handbook, revised in 2002, was being
updated. The update has yet to be completed.

       Informal Recommendation 6: Embassy Yaoundé should complete its update of the
       locally employed staff handbook.

        Most, but not all, LE staff employee performance reports were completed as required.
Thirteen LE staff performance reports due during May–November 2010 were completed after the
due date. According to the Department’s Locally Employed Staff Performance Management
Policy Guidebook, a listing of late employee performance reports must be submitted to the front
office.

       Informal Recommendation 7: Embassy Yaoundé should establish a policy that requires
       the human resources office to submit listings of late employee performance reports to the
       front office for appropriate action.

Locally Employed Staff

      In meetings the OIG team had with individual LE staff members and with the LE staff
committee, a number of issues were raised that are of broad concern to this community.
                 (b) (5)
                                    After an allegation that 40 percent of the LE staff’s medical
claims were fraudulent, embassy management changed the reimbursement policy to require
additional documentation, which has made the process of seeking reimbursement much more
difficult. In some cases, doctors refuse to complete and sign the new mandatory form. The OIG
inspectors contacted six African posts that also self-insure their LE staff members to learn from
their experiences and procedures and received responses from four of them. The OIG team

                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

counseled Embassy Yaoundé management to consider these responses as it revises the current
LE staff medical reimbursement procedures.

         In the past, when LE staff members sought loans from local banks, the embassy issued a
letter to the bank to help them with the application process. The issuance of that letter was
abruptly stopped with no alternative to replace it. The Department’s Office of Overseas
Employment (HR/OE) has no problem with issuing a letter confirming the applicant’s
employment status. Many other embassies issue similar letters to banks considering loan
applications. Embassy Yaoundé management is considering renewal of a letter to support LE
staff loan applications. The OIG team supports this initiative but understands that the embassy
cannot issue a letter guaranteeing the loan’s repayment.

       The embassy has also approached HR/OE about establishing a salary advance plan for
LE staff in Yaoundé. Some perceive that local law would not allow the U.S. Government to
deduct any outstanding amounts from an employee’s final payment and/or retirement payment if
an employee were to separate before the advance is repaid. The OIG team counseled embassy
management to follow up with HR/OE on this issue.

         LE staff members are enrolled in the Defined Contribution Plan and receive a lump sum
payment upon retirement. As with many embassies, the LE staff would prefer an annuity rather
than a lump sum payment. During the course of the inspection, the OIG team learned of financial
institutions in Cameroon that make annuity payments to buyers upon the immediate payment of a
lump sum.

       Informal Recommendation 8: Embassy Yaoundé should conduct a survey of financial
       institutions to determine whether annuity payments could be made to locally employed
       staff members upon receipt of their lump sum retirement payment.

General Services

         The general services office operates effectively and with strong attention to customer
service and internal controls. Operations in procurement, motor pool, property management,
travel, and housing received above average scores from customers in OIG’s inspection
questionnaires. Morale within the office is good. The embassy has taken appropriate corrective
actions to improve controls on personal property in response to significant inventory shortages
identified in 2010. Shipping operations are a weak area in general services office operations.
Vehicle and official freight shipments that come by sea through the Port of Douala historically
have been subject to extensive shipping delays. EBO Douala and Embassy Yaoundé staff use
different shipping spreadsheets, and coordination between the two offices is not strong. EBO
Douala staff members have not had training in shipping procedures and electronic systems in
many years and are not proficient in the use of the Department’s standard shipping electronic
application. Shipping issues are discussed in more detail in the EBO Douala operations
subsection under Management Controls.




                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Property Management

        The embassy documented a shortage of $700,000 in the annual nonexpendable property
inventory conducted in 2009. The embassy convened a property survey board that attributed this
problem to poor recordkeeping by the now-departed nonexpendable property clerk. The OIG
team’s review of property operations notes that internal controls on property could be further
improved by implementing an additional standard control to ensure property accountability. The
embassy does not require written authorization by the accountable property officer or designee
for transfers of property from the warehouse and from embassy residences. Regulations in 14
FAM 414.6 a. require approval in the form of a property pass. In the absence of a property pass
system, warehouse personnel can remove property without approval, thereby circumventing
inventory controls. Current practice is for property records to be signed by the accountable
property officer days after the property has been physically transferred to other locations.

       Informal Recommendation 9: Embassy Yaoundé should establish a policy that requires
       written approval by the accountable property officer or a designee in advance of
       nonexpendable property transfers from the warehouse and residences.

Housing

         The embassy has one residence in the housing pool that has been vacant for
approximately 1 year. The embassy is using this property as temporary duty quarters rather than
as staff housing for personnel permanently assigned to post. The vacant property is leased at an
annual cost of $45,000. Generally, leases should be terminated if a residence is vacant for more
than 90 days. The embassy may lease and operate transient housing only with advance approval
from the Bureau of Overseas Buildings Operations (OBO), as specified in 15 FAM 249, and
must collect charges from temporary duty tenants. Absent such approval from OBO, the lease
must be terminated.

Recommendation 10: Embassy Yaoundé, in coordination with the Bureau of Overseas
Buildings Operations, should terminate lease S-510-OBO-403 for the long-vacant residence in
the housing pool. (Action: Embassy Yaoundé, in coordination with OBO)

Facilities Maintenance

        The embassy’s facilities management office operates a strong and effective program.
However, the program’s long-term sustainability requires a restructured and better trained
workforce. When the new embassy compound was occupied in 2005, the embassy did not
undertake a review of its staffing requirements to support the complex buildings systems for the
new facility. These systems include chillers, electrical systems, waste water treatment systems,
the building management information system, fire suppression systems, and generators. The
embassy must execute several thousand preventive maintenance work orders to maintain a
modern embassy facility.

       Engineering expertise and training are vital to maintaining the full range of systems. Only
two staff positions at the embassy are professional positions. This level of expertise is not
adequate to manage buildings systems in a cost-effective manner over the long term, although
                                         20
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

current staff has done commendable work. Embassy Yaoundé has reached out to neighboring
African posts for position descriptions and ideas on reorganizing the office, a necessary step to
build additional maintenance capacity. Training opportunities for facilities staff are few in
number and ad hoc, which is a systemic problem in the region according to Department officials
interviewed by the OIG team.

         Facilities maintenance personnel have implemented a comprehensive preventive
maintenance program for major building systems as well as residential properties. The embassy
also operates an effective safety, health, and environmental management program. The new
facilities maintenance specialist has placed a priority on building teamwork among his staff.

Facilities and Real Property

       The new embassy compound was completed at a cost of $65 million and occupied in
2005. Since that time, the embassy has had to undertake a number of repairs to remedy
construction defects and omissions. These include replacement of forced-entry ballistic-resistant
doors at a cost of $500,000, installation of an automatic voltage regulator system, and repairs to
the embassy’s chiller system. OBO plans to relocate a water storage tank away from diesel
storage tanks at a cost of another $500,000. Certain building elements, such as the waste water
treatment system and the building management information system, have never functioned as
intended. Notwithstanding these problems, the facility is attractive, functional, and well
maintained.

         EBO Douala’s office building is leased at a cost of $208,000 annually. About half of the
functional office space has been vacant since 2007, when CDC did not occupy office space in the
new facility. In addition, the lease on the EBO Douala director’s residence did not receive OBO
approval and contains nonstandard modifications to the model lease. These issues are addressed
in the larger context of EBO Douala operations in the Management Controls section of this
report.

Information Management

        Embassy Yaoundé experiences frequent city power failures. Through this hardship, the
information management (IM) section provides reliable service. These services include computer
networks and radio and telephone programs, as well as mail and pouch and switchboard
operations. The Information Programs Center is staffed by an experienced information
management officer, one first-tour IM specialist, and one information systems officer. The
mission has one IM assistant position that was vacant at the time of the inspection. The IM LE
staff includes three computer management/Internet specialists, two switchboard operators, two
radio/telephone/television technicians, and one mail room employee.

       Systems security requirements are performed by both the information systems officer and
the IM specialist. Information security functions are performed with approved Hyena software.
The regional computer security officer from Pretoria visited Yaoundé in January 2011, and the
mission will soon close the last outstanding recommendations from that visit.


                                           21
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

         According to OBO policy, new embassies no longer have a building-wide uninterrupted
power supply (UPS). Approximately 200 workstations within the embassy are attached to
desktop UPS units. The OIG team witnessed daily power outages, one so severe that the main
server room UPS failed. Normal UPS units are not made to withstand constant power outages
and surges, and the mission must continually replace its UPS stock, which, coupled with the new
restrictions on UPS and lithium battery shipments, is having a negative effect on IM operations.
Yaoundé is forced to purchase lower quality, higher priced UPS units on the local economy, if
and when they are available.
(b) (5)




Recommendation 11: (b) (5)




Cell Phone Controls

        Embassy Yaoundé’s official cellular telephone program is in disarray. Although the
embassy spends approximately $90,000 annually on cell phones, it does not have a contract with
a local cell phone company. In addition, the embassy does not retain accurate issuance and
disposal records. Department guidance in 14 FAM 414.3 a. requires the completion of personal
custody records for cell phones issued to employees.

          Informal Recommendation 10: Embassy Yaoundé should implement a policy that
          requires use of the DS-584 property custody record for all cell phones issued to embassy
          employees.

          Informal Recommendation 11: Embassy Yaoundé should competitively select a single
          cellular telephone vendor based on cost and technical considerations.

Armed Forces Network Television

       The embassy improperly spent approximately $10,000 in FY 2010 on satellite television
equipment for employee residences. Department policy mandates that such expenses be a
personal expense for all mission personnel except the Ambassador, DCM, and PAO, who are
authorized to receive satellite television equipment by virtue of their official duties. The OIG
team notes that the purchase and management of a mission-wide satellite television plan is often
the function of an embassy employee recreation association or private vendors.


                                           22
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Yaoundé should cease the practice of using appropriated funds
to procure or support personal satellite television services. (Action: Embassy Yaoundé)




                                       23
                           SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Health Unit

        The health unit is staffed by a third-tour Foreign Service health practitioner and three LE
staff members: a nurse, laboratory technician, and administrative assistant. A U.S.-trained
family physician/cardiologist serves as the embassy’s medical advisor. Embassy Yaoundé is
supported by a regional medical officer and regional medical technician from Consulate General
Lagos and by a regional medical officer/psychiatrist from Embassy Accra. The health
practitioner stated that support is good.

        The health unit is located in the chancery and provides primary medical care to embassy
staff and family members as well as emergency care to local staff members who suffer illness or
injury while on the job. The unit also reviews medical insurance claims submitted by LE staff
members. The health unit’s space is more than adequate and includes an administrative office
and waiting room, two private offices, three examination rooms, two laboratories, a pharmacy, a
storage room, and a utility room.

        Although local hospitals can and have been used to stabilize patients, those patients
requiring secondary treatment or with complex medical problems requiring advanced or
extended treatment are sent to Pretoria, which is Embassy Yaoundé’s medical evacuation point.

        The OIG team verified that controlled substances are properly safeguarded and
distributed, expiration dates are tracked, and logs are properly kept.

Equal Employment Opportunity

        At the time of the inspection, the Equal Employment Opportunity (EEO) counselor was
departing for an onward assignment. The embassy had requested volunteers for the position and
was in the process of selecting from among the respondents. The embassy expected to make a
decision in time to have the new EEO counselor attend the mandatory 32-hour training course
being offered in Washington, DC, in March 2011. The outgoing EEO counselor had received
both the 32-hour training and the required yearly refresher training. During her tenure as EEO
counselor, she was frequently called on to answer questions about the program, and she also
provided a refresher course on EEO principles for the entire mission.

        The Embassy is in compliance with requirements to post information about EEO rights,
but the name of the counselor needs to be updated as soon as it is known. There is a designated
LE staff EEO coordinator.

Community Liaison Office

        The CLO received consistently high ratings on employee workplace and quality-of-life
questionnaires. The full-time CLO coordinator is completing her third year in the job and is
assisted by a full-time LE staff assistant. CLO activities include organizing social events for staff
and dependents, advising employees on local work and school options, managing a lending book

                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

and video library, and maintaining emergency plans. The CLO coordinator arranges sponsors for
new arrivals and coordinates recreational programs. Besides serving on the emergency action
committee, the housing board, and other embassy committees, the CLO coordinator prepares a
newsletter every 2 weeks, which publicizes items of general interest and information about
recreational activities, dining opportunities, and shopping trips. The LE staff assistant has been
instrumental in encouraging wider participation in CLO activities among the entire mission staff,
including LE staff and their families when possible. Fund raising activities have included
organizing a used book sale and providing coffee for donations at country team meetings. CLO
maintains a very busy and varied calendar of events, which are largely self-funded.

International Schools
       (b)(5)(b)(6)                             is a small institution with a good academic
reputation within the embassy community. A new director joined the school in summer 2010 and
has worked hard to improve communication between the school and parents and to encourage
greater parental participation.
                                        (b)(5)(b)(6)
        In FY 2010, HR/OE provided             with $56,000 in grants. In the past, the school has
also received funds for security upgrades. The director described one of his major challenges as
retaining the school’s tax-exempt status in the face of the Cameroonian Government’s efforts to
remove it. He is working closely with the embassy’s front office to address this issue.
       (b)(5)(b)(6)



                                 Although not impressed with the school’s physical plant, most
                                 (b)(5)(b)(6)
parents were very satisfied with          academic program. However, a few desired a more
rigorous gifted-and-talented program. Some expressed concern about safety and security issues,
several of which the school director was already addressing.

        The school board consists of eight elected voting members and several nonvoting
members. The director is working with the board on plans to construct a new classroom building
and to renovate others.
       (b)(5)(b)(6)
                                                                                        In FY
2010, the school received $55,350 in grants from the Department’s Office of Overseas Schools.
The school is in the process of completing accreditation procedures with the Middles States
Association of Colleges and Schools. According to the director, the school’s greatest challenge is
financial difficulties caused largely by its lack of tax-exempt status.




                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recreation Association

       The American Employees Recreation Association of Yaoundé (AERAY) provides its
members with a range of services, including a commissary, embassy cafeteria, DVD rental, and
commercial mail service. AERAY meets its financial reporting obligations to the Department
and has maintained profitability, although its net profit decreased by 42 percent from that of
2008, despite a gross sales/services increase of 16 percent over the same period. A 2009 financial
audit by an independent firm indicated no material weaknesses.

        In addition to full membership available to U.S. direct-hire employees, the association
                                        (b)(5)(b)(6)
offers affiliate membership to eligible              teachers. Although not members, LE staff
members have access to some services. In addition, third-country diplomats are eligible to
participate in the association’s frozen foods shipments. AERAY employs one resident American
general manager and eight Cameroonian citizens.

        At the request of the management officer, the Office of Commissary and Recreation
Affairs visited Yaoundé in January 2011 to conduct an internal review of AERAY operations,
provide training to the association’s board of directors, and offer guidance. During their review,
35 action items were highlighted. Thirteen of these items had been closed out by the time of the
inspection.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        Embassy Yaoundé, with the exceptions discussed here regarding EBO Douala, has in
place effective controls to guard against waste, fraud, and mismanagement. These controls have
resulted in the identification of poor recordkeeping and malfeasance in several cases in the past
year. The OIG team identified vulnerabilities at EBO Douala but generally found internal
controls to be satisfactory in other mission operations. The DCM, as charge d’affaires ad interim,
signed the annual statement of management controls on July 31, 2010, certifying that post had no
management controls reportable conditions or material weaknesses.

Embassy Branch Office Douala Operations

Contracting Procedures

        EBO Douala’s contracting procedures are not in compliance with contracting regulations.
The OIG team’s review of contracting documents found that post was using expired blanket
purchase agreements for shipments to Embassy N’Djamena and Embassy Bangui. EBO Douala
has not sought competitive quotations on inland freight shipping services since at least 2008. The
practice of noncompetitively selecting vendors for services costing more than $3,000 is contrary
to Department regulation 14 FAH-2 H-225 a., which requires full and open competition in
contracting or documentation of acceptable reasons for not obtaining such competition. A lack of
competition in contracting may result in higher costs to the government and a higher risk of fraud
or illegal kickbacks.

Recommendation 13: Embassy Yaoundé should implement a procedure to advertise, compete,
and select freight forwarding contracts for inland transportation requirements to Yaoundé and
neighboring posts. (Action: Embassy Yaoundé)

Internal Controls on Shipping Payments

        EBO Douala payments are susceptible to fraud. These payments include petty cash and
shipping charges for fiscal data from other posts and from the central post assignment travel
account. Invoices are submitted and paid at three embassies for Douala operations, which
complicates oversight. Neither EBO Douala nor Embassy Yaoundé has access to financial
systems records for non-post-held transactions and therefore cannot detect duplicate or
fraudulent payments made elsewhere. EBO Douala does not maintain an accurate list of
payments made by other embassies and from post assignment travel fiscal data. The OIG team
noted recent instances of a duplicate payment to a shipping vendor and a questioned bill for
services rendered for an Embassy N’Djamena shipment. In addition, one vendor recently raised a
formal complaint with the embassy that it had not been paid for invoices outstanding since 2007.
The current practice of paying bills at three different embassies and having no central oversight
of the payment function raises the risk that improper or fraudulent payments could go
undetected.


                                         27
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 14: Embassy Yaoundé should implement a plan to consolidate and bring
under its purview shipping services and personnel from embassy branch office Douala. (Action:
Embassy Yaoundé)

Recommendation 15: Embassy Yaoundé, in coordination with the Bureau of African Affairs,
should establish and implement a procedure to centralize all vendor payments for shipping on
behalf of neighboring posts at the embassy’s financial management office. (Action: Embassy
Yaoundé, in coordination with AF)

Cash Payments to Local Port Authorities

         EBO Douala pays many port clearance and customs charges to local authorities in cash.
The OIG team estimates that LE staff members handle approximately $125,000 annually in cash
payments to port authorities. Although EBO Douala has ceased the practice of making payments
in excess of $500 without approval from the embassy’s emergency cash payments officer, cash
payments are inherently vulnerable to waste, fraud, and mismanagement. The embassy has
instituted an internal controls policy over cash payments to require electronic approval in
advance by an American officer for such payments, which is a useful interim step. The embassy
could eliminate the need for cash payments for clearance charges entirely by soliciting a contract
with a commercial freight clearance company to handle port clearances on behalf of the
embassy. Outsourcing this function would reduce cash handling vulnerabilities and potentially
allow for reduction of the cashier’s advance. Embassy management notes that a suitable local
vendor may not be able to deliver the same services as in-house personnel, but this option must
be explored carefully in light of the advantages of outsourcing this service.

Recommendation 16: Embassy Yaoundé should advertise, compete, and select a vendor to
provide freight clearance services for the Port of Douala. (Action: Embassy Yaoundé)

International Through Government Bills of Lading

        EBO Douala is responsible for procuring transportation services to ship freight to
neighboring posts in Chad and the Central African Republic, as well as to Embassy Yaoundé.
This freight consists exclusively of privately owned vehicles, official government vehicles, and
official freight. All other shipments for these posts are sent by air. The method of transporting
official freight, known as the direct procurement method, requires that the embassy maintain an
in-house freight clearance operation to procure freight services and directly support freight
transportation. Since 1993, the Department has used another shipping mechanism that is
generally less expensive, less vulnerable to fraud, and widely used elsewhere, including in
Africa. The International Through Government Bill of Lading (ITGBL) program uses contracts
administered by the General Services Administration to employ a single company to handle all
segments of a shipment. This responsibility includes payment of inland freight forwarding
charges and clearance charges. At neighboring inland African posts, the Department successfully
uses ITGBL shipments to transport household effects without the need for an in-house operation
such as EBO Douala operates. The Department has recently introduced this program in South
Africa to support other inland African posts. Cameroon, Chad, and the Central African Republic
currently are excluded from participation in the ITGBL program, at the request of post
management, even though cost-effective rates exist for door-to-door shipments. Use of ITGBL
                                         28
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

by these posts would eliminate the need for EBO Douala to provide freight forwarding services
for privately owned vehicles. The use of ITGBL would also reduce the costs of shipments and
reduce internal controls vulnerabilities associated with direct procurement method shipments.
Separately, the Department is preparing a pilot program with the General Services
Administration to allow shipment of official vehicles under a standard tender of service
agreement. In sum, viable options exist to convert all freight handled by EBO Douala to door-to-
door shipping methods.

Recommendation 17: The Bureau of African Affairs, in coordination with the Bureau of
Administration, should request that posts supported by embassy branch office Douala be
included in the International Through Government Bill of Lading program and the General
Services Administration’s Vehicle Tender of Service pilot program. (Action: AF, in coordination
with A)

Official Correspondence for Shipping

        In the absence of an American officer, EBO Douala local staff members are issuing
documents attesting to the duty-free status of imports, using official embassy letterhead. These
documents are used to secure release of customs shipments on an express basis while the official
paperwork is pending. Regulations in 2 FAM 111.1-3 c. require that the embassy serve as the
sole conduit for official communication with the host government. Strict limits on the channels
for official communication are necessary to ensure that shipments cleared under the embassy’s
auspices are related exclusively to official government business.

Recommendation 18: Embassy Yaoundé should implement a policy requiring that only an
authorized American officer prepare official communication with the host government on
shipping matters. (Action: Embassy Yaoundé)




                                         29
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Bureau of African Affairs, in coordination with Embassy Yaoundé,
the Bureau of Consular Affairs, and the Bureau of Diplomatic Security, should prepare a written
plan for the Under Secretary for Management that outlines the cost savings of closing embassy
branch office Douala at the earliest opportunity. (Action: AF, in coordination with Embassy
Yaoundé, CA, and DS)

Recommendation 2: Embassy Yaoundé should require that at least one officer in the
political/economic section receive training in grants management and hold grants authority.
(Action: Embassy Yaoundé)

Recommendation 3: Embassy Yaoundé should rewrite the work requirements of one of the
two public diplomacy officers to include direct supervision of Information Resource Center
operations. (Action: Embassy Yaoundé)

Recommendation 4: Embassy Yaoundé should renew the two memoranda of understanding
with American Corner host institutions in Buea and Garoua. (Action: Embassy Yaoundé)

Recommendation 5: Embassy Yaoundé should develop an annual plan that includes
measurable performance goals for supporting the two American Corner facilities in Buea and
Garoua. (Action: Embassy Yaoundé)

Recommendation 6: Embassy Yaoundé should review prevailing medical fees in Cameroon
and work with panel physicians to set reasonable fees for the collection of DNA samples.
(Action: Embassy Yaoundé)

Recommendation 7: Embassy Yaoundé should cease providing notarial services at embassy
branch office Douala until the Bureau of Consular Affairs, General Services Division supplies
venue stamps with the proper address. (Action: Embassy Yaoundé)

Recommendation 8: Embassy Yaoundé should designate the Douala embassy branch office
director as an accountable consular officer with the responsibility for carrying out all fee
collection procedures in accordance with Department of State guidance. (Action: Embassy
Yaoundé)

Recommendation 9: Embassy Yaoundé, in coordination with the Bureau of Consular Affairs,
should maintain the stand-alone automatic cash register system machine at embassy branch
office Douala and provide a supply of manual receipts Form DS-4042 to be used when the cash
register system is not working. (Action: Embassy Yaoundé, in coordination with CA)

Recommendation 10: Embassy Yaoundé, in coordination with the Bureau of Overseas
Buildings Operations, should terminate lease S-510-OBO-403 for the long-vacant residence in
the housing pool. (Action: Embassy Yaoundé, in coordination with OBO)

Recommendation 11: (b) (5)


                                         30
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

(b) (5)



Recommendation 12: Embassy Yaoundé should cease the practice of using appropriated funds
to procure or support personal satellite television services. (Action: Embassy Yaoundé)

Recommendation 13: Embassy Yaoundé should implement a procedure to advertise, compete,
and select freight forwarding contracts for inland transportation requirements to Yaoundé and
neighboring posts. (Action: Embassy Yaoundé)

Recommendation 14: Embassy Yaoundé should implement a plan to consolidate and bring
under its purview shipping services and personnel from embassy branch office Douala. (Action:
Embassy Yaoundé)

Recommendation 15: Embassy Yaoundé, in coordination with the Bureau of African Affairs,
should establish and implement a procedure to centralize all vendor payments for shipping on
behalf of neighboring posts at the embassy’s financial management office. (Action: Embassy
Yaoundé, in coordination with AF)

Recommendation 16: Embassy Yaoundé should advertise, compete, and select a vendor to
provide freight clearance services for the Port of Douala. (Action: Embassy Yaoundé)

Recommendation 17: The Bureau of African Affairs, in coordination with the Bureau of
Administration, should request that posts supported by embassy branch office Douala be
included in the International Through Government Bill of Lading program and the General
Services Administration’s Vehicle Tender of Service pilot program. (Action: AF, in coordination
with A)

Recommendation 18: Embassy Yaoundé should implement a policy requiring that only an
authorized American officer prepare official communication with the host government on
shipping matters. (Action: Embassy Yaoundé)




                                        31
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Yaoundé should program the Qmatic customer
management flow system to allow separate numbers to be provided for individuals seeking
American citizens services and, if possible, to indicate the number currently being served.

Informal Recommendation 2: Embassy Yaoundé should perform monthly unannounced cash
counts of the subcashier funds in the Centers for Disease Control and Prevention office in
Mutengene.

Informal Recommendation 3: Embassy Yaoundé should implement a policy that requires
embassy branch office Douala’s Class B cashier to report to Embassy Yaoundé’s financial
management officer.

Informal Recommendation 4: Embassy Yaoundé should designate an alternate Class B cashier
for embassy branch office Douala.

Informal Recommendation 5: (b)(5)(b)(6)



Informal Recommendation 6: Embassy Yaoundé should complete its update of the locally
employed staff handbook.

Informal Recommendation 7: Embassy Yaoundé should establish a policy that requires the
human resources office to submit listings of late employee performance reports to the front office
for appropriate action.

Informal Recommendation 8: Embassy Yaoundé should conduct a survey of financial
institutions to determine whether annuity payments could be made to locally employed staff
members upon receipt of their lump sum retirement payment.

Informal Recommendation 9: Embassy Yaoundé should establish a policy that requires
written approval by the accountable property officer or a designee in advance of nonexpendable
property transfers from the warehouse and residences.

Informal Recommendation 10: Embassy Yaoundé should implement a policy that requires use
of the DS-584 property custody record for all cell phones issued to embassy employees.

Informal Recommendation 11: Embassy Yaoundé should competitively select a single cellular
telephone vendor based on cost and technical considerations.

                                         32
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Principal Officials
                                                             Name     Arrival Date
Ambassador                                       Robert P. Jackson           10/10
Deputy Chief of Mission                           Lisa J. Peterson           08/09
Chiefs of Sections:
  Administrative                                   Kevin T. Crews           11/09
  Consular                                       Steven B. Royster          07/08
  Political/Economic                              Mikael Cleverley          07/10
  Public Affairs                                Richard Johanssen           08/08
  Regional Security                            Christopher L. Berry         08/10
Other Agencies:
  Centers for Disease Control and Prevention       Benjamin Mills           05/10
  Defense Attaché Office                          Scott H. Morgan           09/09
  Peace Corps                                  Lahoma S. Romocki            03/10




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ACS             American citizens services
AERAY           American Employees Recreation Association of Yaounde
(b)(5)(b)(6)    (b)(5)(b)(6)
CAO             Cultural affairs officer
CDC             Centers for Disease Control and Prevention
CLO             Community liaison office
COP             Country Operational Plan
DCM             Deputy chief of mission
EBO             Embassy branch office
EEO             Equal Employment Opportunity
EFM             Eligible family member
HR/OE           Office of Overseas Employment
HRO             Human resources officer
ICASS           International Cooperative Administrative Support Services
IM              Information management
IRC             Information Resource Center
ITGBL           International Through Government Bill of Lading
IV              Immigrant visa
LE              Locally employed (staff)
MSRP            Mission Strategic Resource Plan
NIV             Nonimmigrant visa
OBO             Bureau of Overseas Buildings Operations
OIG             Office of Inspector General
PAO             Public affairs officer
PAS             Public affairs section
PEPFAR          President's Emergency Plan for AIDS Relief
RSO             Regional security officer
UPS             Uninterrupted power supply
USAID           U.S. Agency for International Development
USDA            U.S. Department of Agriculture




                            34
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
         Arlington, VA 22219



   Cables to the Inspector General
  should be slugged “OIG Channel”
      to ensure confidentiality.




   SENSITIVE BUT UNCLASSIFIED
